APPENDIX
United States Court of Appeals
for the Fifth Circuit
United States Court of Appeals
Fifth Circuit
FILED
February 5, 2021
Lyle W. Cayce
Clerk
No. 20-50462
Ramon D. Johnson, II,
Plain tiff—Appellan t,
versus
Novartis Pharmaceuticals Corporation! Taro
Pharmaceuticals USA, Incorporated! Bausch Health
US, L.L.C.! Sun Pharmaceutical Industries,
Incorporated! Torrent Pharma, Incorporated,
Defen dan ts—Appellees.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:i9-CV-1087
Before Davis, Southwick, and Costa, Circuit Judges.
W. Eugene Davis, Circuit Judge-*
Pro se Plaintiff, Ramon Johnson, appeals the
district court’s grant of Novartis Pharmaceuticals
Corporation (“Novartis”)
Taro Pharmaceuticals
USA, Inc. (“Taro”), Bausch Health US, L.L.C.
la

(“Bausch”) Sun Pharmaceutical Industries, Inc.
(“Sun”), and Torrent Pharma, Inc.’s (“Torrent”)
motions to dismiss. For the reasons that follow, we
AFFIRM the district court’s judgment.
I. Background
Mr. Johnson was prescribed Minocycline
(“Generic Minocin”), a generic form of the brandname drug Minocin, by his physician in April of 2013
for certain dermatology issues. Roughly a year later,
Mr. Johnson developed symptoms of Peyronie’s
Disease (“PD”), a painful condition caused by a
development of plaques and scar tissue in the penis.
He sought the advice of three physicians, including
PD specialists, who continued to recommend the
Generic Minocin treatment. In October of 2014, Mr.
Johnson decided to stop taking Generic Minocin, and
his PD symptoms began to fade away. Later that
October, Mr. Johnson saw his PD specialist and
explained what happened when he stopped taking
Generic Minocin. Mr. Johnson expressed concern
that the drug may be causing PD, but the specialist
told Mr. Johnson that Minocycline does not cause
PD. In November of 2014, Mr. Johnson returned to
his dermatologist and expressed the same concerns.
Like the PD specialist, the dermatologist, who
regularly prescribes Generic Minocin, also told Mr.
Johnson that the drug does not cause PD.
In June of 2017, Mr. Johnson was prescribed
Carbamazepine (“Generic Tegretol”), a generic form
of the brand-name drug Tegretol, at the
recommendation of his pain management physician.
After roughly three months of taking Generic
Tegretol, Mr. Johnson noticed a worsening of his PD
2a

symptoms. During this time, Mr. Johnson began
independent research on his issues. Mr. Johnson’s
research uncovered two findings^
(l) that
Minocycline and Carbamazepine could cause druginduced lupus which, like PD, is a connective tissue
disease; and (2) that there is a correlation
betweenhigh TGF-beta levels and PD. Based on his
research, Mr. Johnson asked his rheumatologist to
order a TGF-beta blood test for him on September 12,
2017. Around the same time, Plaintiff returned to his
PD specialist to report his research and the
worsening of his PD, but the PD specialist once again
told Mr. Johnson that drugs do not cause PD. On
September 13, 2017, Mr. Johnson decided to stop
taking Generic Tegretol. On the next day, Mr.
Johnson’s TGF-beta test came back reporting that
his TGF-beta levels were high.
On December 8, 2017, now three months off of
Generic Tegretol and Generic Minocin, Mr. Johnson
had another TGF-beta test which came back normal.
Mr. Johnson continued his independent research into
his health condition, and in August of 2019, Mr.
Johnson found an article from 1989 that linked
Carbamazepine to PD. He also found articles
showing that Minocycline and Carbamazepine can
increase TGF-beta levels, and he found websites
saying that medications can cause PD.
On September 10, 2019, Mr. Johnson filed suit
against all Defendants under theories of strict
liability, products liability, breach of warranty, and
loss of consortium under Texas state law. Plaintiff
later clarified the relationship between Defendants.
Generic Minocin was manufactured by Ranbaxy,
which was acquired by Sun and subsequently “spun
off’ to Torrent. Sun and Torrent used the label
3a

information from brand-name drug Minocin which is
manufactured by Bausch. Similarly, Generic Tegretol
was manufactured by Taro who used label
information from Novartis’s brand-name drug,
Tegretol. It is undisputed that Sun, Torrent, and
Taro
(together
“Generic
Defendants”)
are
manufacturers of the generic version of the two
drugs Mr. Johnson actually took which he alleges
caused his PD. Similarly, Novartis and Bausch
(together
“Brand
Defendants”)
are
the
manufacturers of the brand-name versions of the
drugs Mr. Johnson alleges caused his PD. However,
it is uncontested that Mr. Johnson did not ingest the
brand-name drugs.
The
Generic
Defendants
and
Brand
Defendants filed Rule 12(b)(6) motions to dismiss
arguing that all of Mr. Johnson’s claims are
precluded as a matter of law by federal preemption
and this Court’s precedent. The district court granted
the motion. Mr. Johnson timely appealed.
II. Discussion
We review Rule 12(b)(6) dismissals de novo.1
“To survive a Rule 12(b)(6) motion, a plaintiff must
plead enough facts to state a claim for relief that is
plausible on its face.”2
A. Claims against the Generic Defendants and
Preemption
In PLIVA v. Mensing, the Supreme Court held
that state law claims against generic drug
manufacturers that turn on the adequacy of the
drug’s label are preempted by federal law.3 The
4a

Mensing Court found that under the 1984 Hatch Waxman Amendments to the Federal Food, Drug,
and Cosmetic Act4 and accompanying FDA
regulations, a generic drug manufacturer “is
responsible for ensuring that its warning label is the
same as the brand name’s [label].”5 In addition,
generic drug manufacturers are not allowed to
unilaterally strengthen or change their drug labels
through the FDA’s process for changing labels.6
Instead, “[g]eneric drug manufacturers thatbecome
aware of safety problems must ask the agency to
work toward strengthening the label that applies to
both the generic and brand-name equivalent drug.”7
Because a generic drug manufacturer has no ability,
on its own, to change its label, the Mensing Court
held that it was impossible for generic drug
manufacturers to comply both with federal law
regulations and state law duties to change warning
labels.8 Two years after Mensing, the Supreme Court
held in Mutual Pharmaceutical Co., Inc. v. Bartlett
that state law strict liability design-defect claims
against generic drug manufacturers are also
preempted when the adequacy of a drug’s label is at
issue.9
In light of these two Supreme Court decisions,
this Court has twice held that strict liability, breach
of warranty, negligence, and products liability claims
under Texas law against generic drug manufacturers
are preempted under Mensing and Bartlett.10 We
have emphasized that when analyzing whether a
plaintiffs various state law claims against a generic
drug manufacturer are preempted, we look at
whether the substance of the claims “turn on
adequacy of labeling and related information.”11

5a

Mr. Johnson argues that at least one of his
claims somehow escapes preemption because it is a
“strict liability marketing defect claim.” Under Texas
law, “[a] marketing defect occurs when a defendant
knows or should know of a potential risk of harm
presented by the product but markets it without
adequately warning of the danger or providing
instructions for safe use.”12 In order to comply with
this law, the Generic Defendants would need to
update their label when they acquired actual or
constructive knowledge of a risk of PD from their
drug. This is the same scenario that the Mensing
Court reasoned was impossible under federal law.13
Thus, Mr. Johnson’s characterization of his claim as
a marketing defect claim turns on the adequacy of
the Generic Defendants’ labels, and his claim is
preempted under Mensing. The same is true of all
claims in Mr. Johnson’s complaint which can be
accurately characterized as products liability claims
for a failure to warn of the side effects of Minocycline
and Carbamazepine.14
B. Claims against the Brand Defendants and their
duties under Texas law
Two prior panels of this Court have held that brandname pharmaceutical companies cannot be held
liable under Texas products liability law when a
plaintiff ingests a generic manufacturer’s drug
rather than the brand-name manufacturer’s drug.15
Products liability law in Texas is governed by statute
and defines the actions as “any action against a
manufacturer or seller for recovery of damages
arising out of personal injury . . . allegedly caused by
a defective product . . . .”16 We found that under this
6a

statute, the Texas Supreme Court has held that
entities are “‘manufacturers’ only with respect to
their own products.”17 Similarly, the Texas Supreme
Court has found that “a fundamental principle of
traditional products liability law is that the plaintiff
must prove that the defendants supplied the product
which caused the injury.”18 Because Mr. Johnson
alleges that he only ingested the Generic Defendants’
drugs and not the Brand Defendants’ drugs, he has
failed to state a products liability claim against the
Brand Defendants.
In addition to theories of products liability
under the statute, this Court has held that brandname drug manufacturers owe no common-law duty
under Texas law to those who do not ingest their
drugs.19 The claims Mr. Johnson advances in his
complaint are the same claims that we have held are
precluded.20 Accordingly, Mr. Johnson has failed to
state any viable claim against the Brand Defendants
under Texas law.
C. Presumption against products liability for
pharmaceutical companies
Under the Texas products liability law statute,
a plaintiff who sues a pharmaceutical manufacturer
under a failure to warn theory must also rebut a
presumption that the manufacturer is not liable if
the label was approved by the FDA.21 This statute
provides five ways to rebut the presumption, and Mr.
Johnson argues that he has satisfied two of the
statute’s provisions^ (l) by alleging that Defendants
perpetrated a fraud on the FDA and (2) by alleging
that Defendants promoted their drug for an
indication not approved by the FDA.22
7a

But, we have held that Texas’s fraud-oirtheFDA rebuttal is preempted by the Food Drug and
Cosmetic Act unless the FDA itself finds fraud.23 We
need not reach the issues surrounding this
presumption statute because even if Mr. Johnson
could succeed on one of his rebuttal arguments, he
still would fail to state a claim against the Generic
Defendants because of Mensingpreemption and
would fail to state a claim against the Brand
Defendants because they owe no duty. To be sure,
this does not render the presumption statute dead
letter law. Had Mr. Johnson’s suit involved an overthe-counter drug or a brand-name prescription drug
that he actually ingested, we would apply Texas’s
presumption statute.24 Because we do not reach the
issues surrounding the presumption statute, we do
not consider Mr. Johnson’s arguments regarding
rebuttal of the statute.
III. Conclusion
We recognize that Plaintiff is left without a legal
remedy based on the case law interpreting products
liability law for generic and brand-name drug
manufacturers. But, we are bound by the decisions of
the Supreme Court and prior panels of this Court.
Based on the foregoing reasons, the judgment of the
district court granting Defendants’ motions to
dismiss is AFFIRMED.
Footnotes
* Pursuant to 5th Circuit Rule 47.5, the court has
determined that this opinion should not be published

8a

and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.
1 Eckhardt v. Qualitest Pharm., Inc., 751 F.3d
674, 677 (5th Cir. 2014).
2 Id. (citing Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007).
3 564 U.S. 604, 618 (2011).
4 21 U.S.C. § 301 et seq.
5 Mensing, 564 U.S. at 613.
6 Id. at 614.
7 Id. at 616. Notably, the Supreme Court
rejected the plaintiffs’ argument that the ability of
the generic defendants to ask the FDA for assistance
in changing the label allows generic pharmaceutical
manufacturers to comply with their state law duties.
Id. at 620-21.
8 Id. at 618.
9 570 U.S. 472, 484-87 (2013).
10 Lashley v. Pfizer, Inc., 750 F.3d 470, 474
(5th Cir. 2014); Eckhardt v. Qualitest Pharm., Inc.,
751 F.3d 674, 678 (5th Cir. 2014).
11 Lashley, 750 F.3d at 474;
Eckhardt, 751 F.3d at 678.

see also

12 Daimlerchrysler Corp. v. Hillhouse, 161
S.W.3d 541, 546 (Tex. App. 2004) affd on other
grounds, 161 S.W.3d 541 (Tex. 2004).
13 Mensing, 564 U.S. at 618.
14 Every claim in the complaint alleges that
Defendants failed to adequately warn of the side of

9a

effects of the drugs with the exception of the Breach
of Warranty and Loss of Consortium claim.
Nevertheless, liability for the warranty and tort
claim will turn on Defendants’ duty to warn.
15 Lashley, 750 F.3d at 477; Eckhardt, 751
F.3d at 680.
16 Tex. Civ. Prac. & Rem. Code Ann. §
82.001(2) (West). This statute was enacted in 1993
which predates the case law beginning in 2011
regarding Afeas/n^-preemption and the duties of
brand-name manufacturers.
17 Lashley, 750 F.3d at 477 (citing Owens &
Minor, Inc. v. Ansell Healthcare Prods., Inc., 251
S.W.3d 481, 485 (Tex. 2008)).
18 Id. (citing Gaulding v. Celotex Corp., 772
S.W.2d 66, 68 (Tex. 1989)).
19 Eckhardt, 751 F.3d at 682 (citing Lashley,
750 F.3d at 476).
20 Compare ROA.15-16 (products liability
claims, strict liability claims, negligence, and breach
of warranty) with Eckhardt, 751 F.3d at 677
(negligence, strict liability, breach of warranties,
misrepresentation, and fraud).
21 Tex. Civ. Prac. & Rem.
82.007(a)(1) (West).

Code Ann. §

22 Tex. Civ. Prac. & Rem. Code Ann. §
82.007(b)(1) (West) (stating that a claimant may
rebut the presumption by establishing that “the
defendant, before or after pre-market approval or
licensing of the product, withheld from or
misrepresented to the United States Food and Drug
Administration required information that was
10a

material and relevant to the performance of the
product and was causally related to the claimant's
injury”); Tex. Civ. Prac. & Rem. Code Ann. §
82.007(b)(3) (West) (stating that a claimant may
rebut the presumption by establishing that “the
defendant recommended, promoted, or advertised the
pharmaceutical product for an indication not
approved by the United States Food and Drug
Administration”).
23 Lofton v. McNeil Consumer & Specialty
Pharm., 672 F.3d 372, 381 (5th Cir. 2012).
24 See, e.g. Id. (analyzing the statute when the
drug involved was over-the-counter ibuprofen);
McKay v. Novartis Pharm. Corp., 751 F.3d 694 (5th
Cir. 2014) (analyzing the statute when two Novartis
brand drugs were ingested and allegedly caused
injury).

11a

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
Civil Action No. 5:i9-cv01087-OLG
RAMON D. JOHNSON, II,
Plaintiffs,
v.
NOVARTIS PHARMACEUTICALS
CORPORATION; TARO
PHARMACEUTICALS USA, INC.;
BAUSCH HEALTH US, LLC; SUN
PHARMACEUTICAL INDUSTRIES
LTD.; and TORRENT PHARMA, INC.,
Defendants.
ORDER
On this day, the Court considered the status of
the above-captioned case. Currently pending before
the Court are Defendants Sun Pharmaceutical
Industries and Tara Pharmaceuticals USA’s Motion
to Dismiss (docket no. 8); Defendant Novartis
Pharmaceuticals Corporation’s Motion to Dismiss
(docket no. 9); Defendant Torrent Pharma, Inc.’s
Motion to Dismiss (docket no. 12); and Defendant
Bausch Health US, LLC’s Motion to Dismiss (docket
no. 23). Also pending are Plaintiffs Motion for Leave
to File a Combined Rebuttal to Defendants’ Replies
in Support of their Motions to Dismiss (docket no. 44)
and Plaintiffs Motion for Leave to File a First
Amended Complaint for a Civil Case and To Edit the
Style of the Case (docket no. 47). Having considered
each of these Motions and the record, the Court finds
12a

that Defendants’ Motions to Dismiss should be
GRANTED.
BACKGROUND
On September 10, 2019, Plaintiff Ramon D.
Johnson II (“Plaintiff’) initiated this lawsuit alleging
that he suffered personal injuries resulting from his
use of two drugs^ Minocycline and Carbamazepine.
See docket no. 1. Specifically, Plaintiff alleges that he
was prescribed Minocycline in April 2013 for an
unrelated condition. Id. at p. 7. About one year later,
Plaintiff noticed his first symptoms of Peyronie’s
Disease (“PD”). Id. In October of 2014, after seeing
specialists for his PD, Plaintiff alleges that he
stopped taking the Minocycline due to its waning
effectiveness when he noticed that the pain and
symptoms of PD went away. Id. That same month,
Plaintiff restarted Minocycline and his PD symptoms
“returned very quickly.” Id. Plaintiff again stopped
taking the Minocycline, and again his symptoms
subsided. Id. On October 30, 2014, Plaintiff told his
doctor that he suspected the drug was causing his
PD, but the doctor told him “unequivocally” that the
drugs do not cause the condition. Id. Another doctor
told him the same thing in November 2014. Id.
On or about June 15, 2017, Plaintiff began
taking Carbamazepine for the treatment of another
unrelated condition. Id. On September 10, 2017,
Plaintiff noticed new PD symptoms, and, the next
day, he notified the prescribing doctor of his theory
on the link between the drugs and PD. Id. at p. 8. As
with Minocycline, each doctor he spoke to refuted
that there was any known link between
Carbamazepine and PD. Id. Plaintiff then ceased
13a

taking Carbamazepine and the PD pain “shortly
went away.” Id. On August 19, 2019, Plaintiff further
researched his suspicion that both drugs are linked
to PD, discovering articles that he alleges may
indicate that his doctors were incorrect when they
rejected the link. Id. Plaintiff notes that neither drug
warned that PD could be a side effect. Id.
As a result, Plaintiff states five causes of
action: strict liability, negligent manufacturing,
negligent
failure
to
warn/fraudulent
misrepresentation, breach of express and/or implied
warranty, and loss of consortium. See id. at pp. 6-7.
Though Plaintiffs complaint asserts these causes of
action generally against all Defendants, his response
to the pending motions to dismiss clarifies the
relationship between each Defendant and the
allegedly harmful drugs. Compare docket no. 1 with
docket no. 39. Plaintiff states that the Minocycline
capsule was manufactured by Ranbaxy, which was
then acquired by Defendant Sun Pharmaceuticals
and “spun off’ to Defendant Torrent. Docket no. 39 at
If 1. Plaintiff further alleges that Minocycline’s “label
information” was copied from Defendant Bausch’s
label for its brand name drug Minocin. Id. With
respect to the alleged injuries caused by
Carbamazepine, Plaintiff states that the tablet was
manufactured by Defendant Taro, with “label
information from Novartis for their brand name
drug Tegretol.” Id.
Shortly after service of process, each
Defendant moved to dismiss the claims based on
various arguments. First, Novartis moved to dismiss
Plaintiffs
claims,
asserting
that
it
never
manufactured the generic carbamazepine that
Plaintiff ingested. See docket no. 9. Indeed, Novartis
14a

only manufactures the brand name version of
carbamazepine—Tegretol. Id. Because Plaintiff did
not ingest Tegretol, his claims against Novartis
appear to be based on the company’s design of its
warning labels for Tegretol, which the generic
carbamazepine copies. Id. However, Novartis argues
that this theory of liability is known as “innovator
liability” and has been widely rejected, including in
Texas. Id. Moreover, Novartis moves to dismiss
pursuant to 12(b)(2) for lack of personal jurisdiction,
as it is a New Jersey citizen that made its marketing
and labeling decisions in New Jersey. Id. Finally,
Novartis argues that Plaintiffs fraud-based claims
fail to meet Rule 9(b)’s heightened pleading
standard. Id.
Similarly, Bausch moves to dismiss on the
grounds that Plaintiff admits in his complaint that
he did not ingest Bausch’s product—the brand name
drug Minocin. See docket no. 23. Instead, Plaintiff
alleges that he took the generic Minocycline,
meaning that his warning defect claims would again
have to be based on “innovator liability.” Id. Bausch
also argues that Plaintiffs claims are time-barred, as
Plaintiffs PD allegedly caused by Minocycline first
occurred in April 2014, and he admits in his
complaint that he questioned his doctors on the link
between the drug and PD in October 2014.
Accordingly, the statute of limitations for his claims
has passed. Id. Bausch also argues that Plaintiffs
fraud-based claims fail under Rule 9(b), and that this
Court does not have personal jurisdiction over it.
Finally, Bausch argues that Plaintiffs state law
claims are barred by the presumption of no liability
for drug manufacturers after the FDA approves their
labels. Id.
15a

Sun and Taro filed a joint motion to dismiss
presenting similar arguments.
Though they
manufactured the generic drugs that Plaintiff
ingested, Sun and Taro argue that Plaintiff does not
meet any of the exceptions to Texas’s presumption
that drug manufacturers are not liable for labels
approved by the FDA. See docket no. 8. Finally, Sun
and Taro argue that because their medications are
generic, Plaintiffs state law claims are preempted by
federal law’s requirement that their labels conform
with the brand name versions of their drugs. Id.
Accordingly, they seek to dismiss Plaintiffs claims
with prejudice.
Finally, Torrent moves to dismiss Plaintiffs
claims against it, asserting much of the same
arguments as the other defendants. First, Torrent
points out that Plaintiff has not alleged that he took
any drug that it manufactured. See docket no. 12.
Second, Torrent cites the Texas presumption that it
is not liable for claims related to warning labels
approved by the FDA. Id. Third, because Torrent’s
Minocycline and Carbamazepine products are
generic drug products, any state law claims are
preempted by federal law. Id.
Plaintiff then filed an omnibus response to
these motions. See docket no. 39. Each of the
Defendants replied, and then Plaintiff filed a motion
to permit a sur-reply. See docket no. 44.1 Finally,
Plaintiff moves for leave to amend his complaint,
attaching the proposed amended complaint. See
docket no. 47. Each Defendant filed a response m
opposition to the amended complaint. Though
Plaintiff adds factual allegations to his claims, he
asserts the same causes of action except for
substituting Deceptive Trade Practices Act and
16a

Common Law Negligence claims for his loss of
consortium claim. Compare docket no. 47-1 with
docket no. 1. The crux of his allegations remains the
same, however, as he still maintains that he ingested
the generic drugs and that the Defendants are liable
for their failure to warn him of the side effects. The
Court turns to these Motions now.
ANALYSIS
Federal Rule of Civil Procedure 8(a) requires a
complaint set forth “a short and plain statement of
the claim showing that the pleader is entitled to
relief[,]” and Federal Rule of Civil Procedure 12(b)(6)
states that a complaint may be dismissed for failing
to “state a claim upon which relief can be granted.”
In evaluating a motion to dismiss, the Court must
determine if the complaint alleges “enough facts to
state a claim to relief that is plausible on its face.”
Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007).
To be “plausible on its face,” the complaint must
contain allegations for each material element
“necessary to sustain recovery under some viable
legal theory.” Id. at 562. The Court assumes the
complaint’s factual allegations, but not its legal
conclusions, are true. Ashcroft v. Iqbal, 556 U.S. 662,
678, 680-81 (2009). The complaint is dismissed if it
fails to state enough facts to allow the Court to “draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Id. at 678.
With the pleading standard in mind, the Court
finds merit in each of the arguments put forth by
Defendants. As an initial matter, the Court
acknowledges Plaintiff asserts multiple causes of
action. However, each of these causes of action
17a

centers around a products liability claim based on
Defendants’ alleged failure to warn. The Court will
therefore treat Plaintiffs causes of action as a failure
to warn claim. See Lashley v. Pfizer, Inc., 750 F.3d
470, 474 (5th Cir. 2014) (construing negligence,
fraud, and deceptive trade practices act claims as
failure to warn, given that the allegations supporting
each cause of action related specifically to the label’s
alleged failures); see also docket nos. 1 and 47-1.
1. Innovator Liability - Brand Name Manufacturers
The two “brand name” Defendants—Bausch
and Novartis—each move to dismiss Plaintiffs
claims as relying on innovator liability: or claims
against a brand name manufacturer for injuries
caused by a generic drug. See, e.g., docket no. 23 at p.
7. Underlying this argument is the fact that both
Plaintiffs original and proposed amended complaint
fail to allege that he ever ingested Minocin or
Tegretol, the two brand name drugs manufactured
by Bausch and Novartis. Instead, his claims against
Bausch and Novartis rely on the other Defendants’
generic drugs copying the information from the
brand name labels. See docket no. 1.
Texas law rejects this theory of liability.
Indeed, products liability law generally requires
allegations that the defendant supplied the allegedly
defective product to the plaintiff. See Hicks v.
Charles Pfizer & Co. Inc., 466 F. Supp. 2d 799, 803
(E.D. Tex. 2005) (quoting Gaulding v. Celotex Corp.,
772 S.W.2d 66, 68 (Tex. 1989)). Moreover, a recent
Fifth Circuit case addressed a very similar
procedural posture. In Eckhardt, a plaintiff sued
both generic and brand name manufacturers, even
18a

though he only ingested the generic drug. See
Eckhardt v. Qualitest Pharmaceuticals, Inc., 751
F.3d 674 (5th Cir. 2014). The Fifth Circuit upheld the
district court’s dismissal of the plaintiffs negligence,
products liability, and fraud claims against the brand
name manufacturers, noting that brand name
manufacturers do not owe a duty to consumers of
generic drugs. See id.', see also Lashley, 750 F.3d at
477 (“Del Valle admits that she did not ingest the
Schwartz brand defendants’ product; thus, we find
that Schwartz brand defendants are not liable under
Texas products liability law.”). Accordingly, because
Plaintiffs original and amended complaint admits
that he did not ingest Bausch or Novartis’s products,
his claims against them must be dismissed.
Defendant Bausch and Defendant Novartis’s
Motions to Dismiss are therefore GRANTED.
2. Federal Preemption and FDA Approval - Generic
Man ufacturers
All Defendants, including the generic drug
manufacturers, assert two arguments based on the
FDA’s approval of their labels. First, Defendants
point to Texas law’s presumption of no liability for
FDA-approved labels. See, e.g., docket no. 8 at p. 14.
Indeed, Texas Civil Practice & Remedies Code
Section 82.007(a)(1) provides that FDA approval
“presumptively insulates from liability, for failure to
warn, defendants who made, prescribe, or sell drugs
in accord with FDA standards.” Fofton v. McNeil
Consumer & Specialty Pharm., 672 F.3d 372, 279
(5th Cir. 2012). Texas law provides five ways this
presumption of no liability can be rebutted- (l) “fraud
on the FDA”; (2) the product was sold after the FDA
19a

ordered the product removed from the market; (3) if
the manufacturer promoted the product for a use not
approved by the FDA; (4) off-label prescriptions; and
(5) bribery of a public official. See Tex. Civ. Prac. &
Rem. Code § 82.007(b)(l)-(5).
Of these exceptions, Plaintiff principally
pleads the “Fraud on the FDA” exception. See docket
no. 39 at p. 10. Specifically, Plaintiff alleges that
Defendants withheld from the FDA information
related to the connection between the drugs and PD.
See id. However, as each Defendant points out, the
“Fraud on the FDA” exception is preempted by
federal law unless the FDA has found fraud. See
Lofton, 672 F.3d at 380 (“In cases like this, where the
FDA has not found fraud, the threat of imposing
state liability on a drug manufacturer for defrauding
the FDA intrudes on the competency of the FDA and
its relationship with regulated industries.”). Because
Plaintiff does not allege that the FDA has found
fraud on behalf of Defendants’ related to these drugs,
this exception is preempted and cannot provide the
basis for liability.
Plaintiff
also
contends
that
Section
82.007(b)(3)
applies,
or
that
Defendants
“recommended, promoted or advertised” these drugs
“for an indication not approved by the [FDA].”
However, pleading this exception requires alleging
that (a) Defendants marketed and promoted the
unauthorized use of the drugs to the prescribing
doctors, that (b) Plaintiff relied on that specifically
promoted use, and that (c) Plaintiffs injuries were
caused by that off-label promotion. See Lucas v.
Abbott Laboratories, 2013 WL 2905488, at *3 (N.D.
Tex. June 13, 2013). Plaintiff fails to allege any facts
related to Minocycline’s “off-label” marketing. See
20a

docket nos. 1 & 39. Nor does he allege any facts
related to Defendants Sun Pharmaceuticals or Taro’s
marketing of Carbamazepine for off-label uses, or,
that his use of the drug was off-label. The Court
therefore finds that Plaintiff has not alleged any
facts rebutting Texas law’s presumption of no
liability resulting from FDA approval.
Alternatively, Plaintiffs state law claims
against the generic manufacturers are preempted by
federal law. This preemption argument relies on the
Supreme Court’s decision in Mensing, which held
that federal law preempted state law causes of action
related to a generic drug manufacturers failure to
warn. PLIVA, Inc. v. Mensing, 564 U.S. 604 (2011)
(finding it impossible for generic manufacturers to
abide by state warning laws while also abiding by
federal law mandating that they match brand name
labels). Subsequently, the Supreme Court in Bartlett
found design defect claims that were based on a
generic manufacturer’s failure to provide adequate
warnings were also preempted under the same
theory. See Mutual Pharmaceutical Co., Inc. v.
Bartlett, 570 U.S. 472, 480 (2013). The Fifth Circuit
recently interpreted Mensing and Bartlett as
preempting Texas law claims such as those Plaintiff
asserts here. See Lashley, 750 F.3d at 473-76. In
Lashley, the Fifth Circuit held that failure to warn
and other design defect claims relating to a generic
drug manufacturer’s warning labels were preempted
under federal law. Id. Thus, since Plaintiffs claims
against the generic manufacturer Defendants are all
based off their alleged failure to warn of the risk of
PD, these claims are preempted.
In sum, Plaintiffs claims against the generic
manufacturers fail because they do not rebut Texas
21a

law’s presumption of no liability for drugs approved
by the FDA. Moreover, and alternatively, Plaintiffs
claims are preempted by federal law under Supreme
Court and Fifth Circuit Precedent. Accordingly,
Defendants Sun Pharmaceuticals, Taro, and
Torrent’s Motions to Dismiss are GRANTED.
3. Leave to Amend
Finally, Plaintiff moves for leave to amend his
complaint. See docket no. 47. He attaches the
proposed amended complaint to the motion. See
docket no. 47-1. Federal Rule of Civil Procedure 15(a)
governs amending pleadings, stating that Courts
“should freely give leave when justice so requires.”
Generally, the rule “evinces a bias in favor of
granting leave to amend,” Rosenzweig v. Azurix
Corp., 332 F.3d 854, 863 (5th Cir. 2003), and absent
a significant reason, “such as undue delay, bad faith,
dilatory motive, or undue prejudice to the opposing
party, ‘the discretion of the district court is not broad
enough to permit denial.’” Martin’sHerendImports,
Inc. v. Diamond & Gem Trading United States of
Am. Co., 195 F.3d 765, 770 (5th Cir. 1999) (quoting
Dussouy v. Gulf Coast Inv. Corp., 660 F.2d 594, 598
(5th Cir. 1981)).
As noted above, Plaintiffs claims fail against
the brand name manufacturers Bausch and Novartis
primarily because he does not allege that he ingested
their drugs. Plaintiffs proposed amended complaint
does not change this determination. Instead, he
reiterates that he only ingested the generic drugs,
and thus his amendment would be futile as to both
Bausch and Novartis for the same reasons. See Wells
v. Wyeth Pharm., Inc., 233 F. Supp. 3d 534, 540
22a

(W.D. Tex. 2017 (dismissing claims with prejudice
and denying leave to amend complaint against brand
name manufacturer in case where plaintiff did not
ingest the brand name drugs). With respect to the
generic manufacturers, as noted above, these claims
are preempted by federal law. Even still, Plaintiffs
amended complaint still fails to rebut Texas law’s
presumption of no liability for drugs approved by the
FDA. Indeed, other district courts within the Fifth
Circuit have dismissed these same claims with
prejudice based on preemption. See, e.g., Elmazouni
v. Mylan, Inc., 220 F. Supp. 3d 736, 747 (N.D. Tex.
2016). Accordingly, the Court finds that permitting
amendment would be futile and unduly prejudicial to
Defendants. Plaintiffs motion for leave to amend is
therefore denied. These claims are dismissed with
prejudice.
CONCLUSION
IT IS THEREFORE ORDERED that Sun
Defendants’ Motion to Dismiss for Failure to State a
Claim
(docket no.
8);
Defendant Novartis
Pharmaceuticals Corporation’s Motion to Dismiss
(docket no. 9); Defendant Torrent Pharma, Inc.’s
Motion to Dismiss (docket no. 12); and Defendant
Bausch Health US, LLC’s Motion to Dismiss
Plaintiff s Complaint (docket no. 23) are GRANTED.
IT IS FURTHER ORDERED that Plaintiffs
Motion for Leave to File a Combined Rebuttal to
Defendants’ Replies in Support of their Motions to
Dismiss (docket no. 44) is GRANTED. Sun
Defendants’ Original Motion to Dismiss (docket no.
7) is DISMISSED AS MOOT.

23a

IT IS FURTHER ORDERED that Plaintiffs
Motion for Leave to File Amended Complaint (docket
no. 47) is DENIED. These claims are DISMISSED
WITH PREJUDICE.
It is so ORDERED.
SIGNED this 7th day of May, 2020.
/s/ Orlando L. Garcia
ORLANDO L. GARCIA
CHIEF UNITED STATES DISTRICT JUDGE

Footnote^
1 The Court takes into consideration Plaintiffs surreply, noting the liberal standard courts must apply
to pro se litigants’ pleadings. See Castro v. SN
Servicing Corp., 2015 WL 11621152 (W.D. Tex. Sept.
2, 2015).

24a

PROVISIONS INVOLVED
Amendment I of the Constitution of the
United States of America
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
Mich. Comp. Laws § 600.2946(5)(a)
Intentionally withholds from or misrepresents to the
United States food and drug administration
information concerning the drug that is required to
be submitted under the federal food, drug, and
cosmetic act, chapter 675, 52 Stat. 1040, 21 U.S.C.
301 to 321, 331 to 343-2, 344 to 346a, 347, 348 to 353,
355 to 360, 360b to 376, and 378 to 395, and the drug
would not have been approved, or the United States
food and drug administration would have withdrawn
approval for the drug if the information were
accurately submitted.
Tex. Civ. Prac. Rem. Code § 82.001(4)
"Manufacturer" means a person who is a designer,
formulator, constructor, rebuilder, fabricator,
producer, compounder, processor, or assembler of any
product or any component part thereof and who
places the product or any component part thereof in
the stream of commerce.

25a

Tex. Civ. Prac. Rem. Code § 82.007
Sec. 82.007. Medicines, (a) In a products
liability action alleging that an injury was caused by
a failure to provide adequate warnings or
information with regard to a pharmaceutical product,
there is a rebuttable presumption that the defendant
or defendants, including a health care provider,
manufacturer, distributor, and prescriber, are not
liable with respect to the allegations involving failure
to provide adequate warnings or information if:
(l) the warnings or information that
accompanied the product in its distribution were
those approved by the United States Food and Drug
Administration for a product approved under the
Federal Food, Drug, and Cosmetic Act ( 21 U.S.C.
Section 301 et sea.), as amended, or Section 351,
Public Health Service Act ( 42 U.S.C. Section 262 ),
as amended; or
(2) the warnings provided were those
stated in monographs developed by the United States
Food and Drug Administration for pharmaceutical
products that may be distributed without an
approved new drug application.
(b) The claimant may rebut the presumption
in Subsection (a) as to each defendant by
establishing that:
(l) the defendant, before or after pre­
market approval or licensing of the product, withheld
from or misrepresented to the United States Food
and Drug Administration required information that
was material and relevant to the performance of the
product and was causally related to the claimant's
injury,

26a

(2) the pharmaceutical product was
sold or prescribed in the United States by the
defendant after the effective date of an order of the
United States Food and Drug Administration to
remove the product from the market or to withdraw
its approval of the product;
(3)(A) the defendant recommended,
promoted, or advertised the pharmaceutical product
for an indication not approved by the United States
Food and Drug Administration;
(B) the product was used as
recommended, promoted, or advertised; and
(C) the claimant's injury was
causally related to the recommended, promoted, or
advertised use of the product;
(4)(A) the defendant prescribed the
pharmaceutical product for an indication not
approved by the United States Food and Drug
Administration;
(B) the product was used as
prescribed; and
(C) the claimant's injury was
causally related to the prescribed use of the product;
or
(5) the defendant, before or after premarket approval or licensing of the product, engaged
in conduct that would constitute a violation of 18
U.S.C. Section 201 and that conduct caused the
warnings or instructions approved for the product by
the United States Food and Drug Administration to
be inadequate.

27a

Tex. Const. Act. I, § 13
Section 13 - EXCESSIVE BAIL OR FINES; CRUEL
AND UNUSUAL PUNISHMENT; REMEDY BY
DUE COURSE OF LAW
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel or unusual punishment
inflicted. All courts shall be open, and every person
for an injury done him, in his lands, goods, person or
reputation, shall have remedy by due course of law.
Tex. Gov’t Code § 311.023
Section 311.023 * Statute Construction Aids - In
construing a statute, whether or not the statute is
considered ambiguous on its face, a court may
consider among other matters the:
(1) object sought to be attained;
(2) circumstances under which the statute was
enacted;
(3) legislative history!
(4) common law or former statutory provisions,
including laws on the same or similar subjects!
(5) consequences of a particular construction!
(6) administrative construction of the statute! and
(7) title (caption), preamble, and emergency
provision.

i

28a

